UNITED STATES DEPARTMENT OF AGRICULTURE

       OFFICE OF INSPECTOR GENERAL



STATEMENT OF THE HONORABLE PHYLLIS K. FONG

            INSPECTOR GENERAL



                   Before the

  SUBCOMMITTEE ON GOVERNMENT MANAGEMENT,
       ORGANIZATION, AND PROCUREMENT

COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

         U.S. HOUSE of REPRESENTATIVES



                 June 20, 2007
Thank you, Chairman Towns, and Ranking Member Bilbray, for inviting me to
testify before you today to discuss several issues of interest pertaining to the
independence, accountability, and operations of Federal Offices of Inspectors
General (OIG). I want to express my thanks to the Chairman and also the former
Chairman, Representative Platts, for your continued interest in the role and
performance of Inspectors General (IGs) in the Federal Government.


After being nominated by President Bush and confirmed by the Senate, I have served
as the IG for the Department of Agriculture (USDA) since December 2002. Prior to
that, I had received an appointment from then-President Clinton and served as the
IG at the Small Business Administration from April 1999 until December 2002. My
entire career in executive level positions in the Federal IG community spans 19
years, and I am a career member of the Senior Executive Service.


In addition to my service as USDA’s IG, I am currently the Chair of the Legislation
Committee for the President’s Council on Integrity and Efficiency (PCIE). Created
in 1981, the PCIE provides a forum for IGs, the Office of Management and Budget
(OMB), and other Federal officials to work together and coordinate professional
activities. The Legislation Committee consists of IGs from both segments of the IG
community – nine presidentially-appointed (PAS) IGs who are members of the
PCIE, and three IGs who were appointed by agency heads in Designated Federal
Entities (DFEs), and thus are members of the Executive Council on Integrity and
Efficiency (ECIE).   The ECIE provides a forum similar to the PCIE for the DFE
IGs.


The PCIE Legislation Committee serves as the IG community’s primary point of
contact and liaison on legislative issues with Congressional committees,
congressional offices, and the Government Accountability Office (GAO).         The
Legislation Committee is responsible for providing input to and receiving feedback
from Congress on legislation affecting the IG community as a whole.            The
Committee works toward developing consensus within the entire IG community
                                                                                         2


regarding major legislation impacting IGs; on some issues, however, there may be a
range of perspectives that reflect different IGs’ experiences and situations.


As requested by Chairman Towns, my testimony today will be based on my
experience as an Inspector General at two Federal agencies and, when appropriate,
my perspective as Chair of the PCIE Legislation Committee.                My testimony will
address the overarching issues of IG independence and accountability in the context
of H.R. 928, the Improving Government Accountability Act.


H.R. 928 – The Improving Government Accountability Act


As Chair of the PCIE Legislation Committee, I want to express our appreciation to
Representative Cooper for his continuing efforts to explore and craft legislation to
promote the independence and accountability of the IG community.                   We have
worked closely with Representative Cooper and his staff on prior versions of this bill,
and there is widespread support in the IG community for the major provisions in its
current version, H.R. 928.        I would like to briefly address several of the bill’s
provisions that are of particular interest to the IG community.


Establishment of a Council of the Inspectors General on Integrity and Efficiency


H.R. 928 would create a unified Inspectors General Council to enhance coordination
and communication among OIGs and better serve our agencies and the Congress.
A unified council would promote the independence and unique responsibilities of
IGs by creating a forum for more sustained and organized IG initiatives on a
governmentwide basis. Just as individual IGs have dual responsibilities to both the
Executive and Legislative branches, so too would a statutory unified Council. For
example, the Deputy Director for Management of OMB would serve as the
Council’s Executive Chair and the Council would also be responsive and report to
Congress, as appropriate.        The bill would also establish a necessary funding
mechanism for the Council’s institutional activities, such as publishing an annual
                                                                                     3


progress report and providing essential training programs for OIG audit,
investigative, inspection, and management personnel.


In the area of accountability, the unified IG council provision would permanently
establish an Integrity Committee (IC) to handle allegations of wrongdoing on the
part of an Inspector General or certain OIG staff. The Integrity Committee is a
response to the question of “Who is watching the watchdogs?”      The functions of the
current IC are set forth in an Executive Order. The bill includes several provisions to
maintain quality and integrity in IC operations, including a requirement to adhere to
the most current Quality Standards for Investigations issued by the IG Council or the
PCIE/ECIE, and requirements to ensure fairness and consistency in the operations
of the committee.    The bill would provide, for example, that the subject of an
investigation have the opportunity to respond to any IC report.


H.R. 928’s proposal to create a Council of the Inspectors General on Integrity and
Efficiency has widespread support in the IG community.


PFCRA, Subpoena Authority, and Law Enforcement Authority


H.R. 928 includes several provisions that the PCIE Legislation Committee believes
would improve the effectiveness of OIG audit and investigative activities. First, the
bill would amend the Program Fraud Civil Remedies Act (PFCRA) to allow DFE
IGs to utilize the Act’s processes to pursue false claims and statements where the loss
to the government is less than $150,000. Presidentially-appointed IGs already can
utilize PFCRA to recover the loss of taxpayer dollars due to fraud, and smaller OIGs
should also have the ability to pursue lower-threshold fraud cases. DFE IGs are not
currently authorized to utilize PFCRA procedures because those IGs had not been
created at the time of PFCRA’s enactment.


Second, H.R. 928 would modernize IG law enforcement capabilities by clarifying
that IG subpoena authority extends to electronic information and tangible things.
                                                                                        4


This is an important clarification at a time when ever-increasing amounts of
information are stored electronically, and technological advances are constantly
creating new forms of data, computer equipment, and data transmission devices.


Finally, H.R. 928 would authorize DFE IGs to apply for full law enforcement
authority rather than having to apply for such authority on a case-by-case basis.
Presidentially-appointed IGs obtained this authority pursuant to the Homeland
Security Act of 2002, which allows them to make arrests, execute search warrants,
and carry firearms. This authority has been used effectively by PAS IGs. The bill
would make it available to those DFE IGs who seek such authority, once approved
by the Department of Justice.


Term Appointment and Removal for Cause


H.R. 928 would establish a renewable term of office of 7 years for both PCIE and
ECIE IGs and would authorize removal of an IG prior to the expiration of the term
for certain enumerated causes. The IG Act currently provides no specified term of
office for IGs; the only limit on the authority to remove IGs is a requirement that
Congress be notified of such removal. A majority of the IG community believes that
these provisions of H.R. 928, if enacted, would enhance the independence of IGs.


Other provisions in H.R. 928 pertaining to IG authority over OIG personnel and
budgets would also enhance OIG independence.


Compensation for DFE IGs


H.R. 928 contains a provision that would require DFE IGs to be classified, for pay
and other purposes, at the same level as the majority of other senior officials (such as
a general counsel, deputy director, or chief of staff) who report directly to the entity’s
head or board. This provision would ensure the parity of IG pay and rank within a
DFE.
                                                                                      5

Compensation Issues Involving PAS IGs


Among the issues on which the Chairman invited testimony for today’s hearing are
pay disparities encountered by IGs. H.R. 928 addresses this issue with respect to
DFE IGs, but is silent as to PAS IGs. Currently, a number of PAS IGs are ineligible
for locality pay and cost of living adjustments, are excluded from the benefits of the
performance-based pay system Congress established for career senior executives,
must forego potential bonuses to preserve OIG independence, and have their salaries
capped by statute at Level IV of the Executive Schedule, without the possibility of
promotion. At a time when IG responsibilities are steadily increasing and
Congressional committees, agency heads, and the public look to IGs to ensure
integrity in government operations, virtually all PAS IGs are paid at a level
significantly below the average annual compensation of the SES personnel they
supervise.       This disparity in compensation is a significant concern for current PAS
IGs and could have an increasing impact on the Government’s ability to retain
experienced IGs. Perhaps more important, however, is the impact on the willingness
of qualified and talented Federal career executives to serve as PAS IGs in the larger
and more challenging Federal departments and agencies.


A proposal to equitably remedy this situation can be found in a statutory provision
pending in a procurement reform bill. 1 It would simply move PAS IGs from Level
IV of the Executive Schedule pay scale to Level III. While this adjustment would
not completely address the pay disparities for PAS IGs, it would be a positive step
towards recruiting and retaining well-qualified IG candidates.


On behalf of the Legislation Committee, we respectfully request that Representative
Cooper and the Members of the Subcommittee consider adding a similar provision to
any IG Act-related legislation you may advance during the 110th Congress. We
would be pleased to provide additional information to assist the Subcommittee in its
deliberations.

1
    S. 680, the Accountability in Government Contracting Act of 2007.
                                                                                6


This concludes my testimony. I again want to thank you for your interest in and
support of the Inspector General community, and on behalf of the PCIE Legislation
Committee, I sincerely look forward to working with Members of the Subcommittee
and your staff to improve the effectiveness of our offices and the departments and
agencies we serve. I would be pleased to address any questions you may have.
